TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Elderly Taxpayers Would Benefit by the
                        Internal Revenue Service and Tax
                       Professionals Partnering to Reduce
                               Unnecessary Filings



                                           May 28, 2009

                              Reference Number: 2009-30-076




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            May 28, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Elderly Taxpayers Would Benefit by the Internal
                             Revenue Service and Tax Professionals Partnering to Reduce
                             Unnecessary Filings (Audit # 200830013)

 This report presents the results of our review to determine what steps, if any, the Internal
 Revenue Service (IRS) had taken to inform taxpayers who file returns to reclaim withholding
 from non-taxable Social Security benefits for which they do not have to have income tax
 withheld or file returns. This review is included in our Fiscal Year 2009 Annual Audit Plan
 under the major management challenge of Providing Quality Taxpayer Service Operations.

 Impact on the Taxpayer
 Taxpayers aged 65 or older will directly benefit by not filing returns when they have no need to
 do so. These taxpayers will have less burden and will save time and financial costs. To realize
 these benefits, taxpayers will need to work with tax professionals and guidance from the IRS to
 reevaluate their withholding requirements if they do not anticipate tax liabilities in future years.

 Synopsis
 This review focused on taxpayers aged 65 or older who had minimal income yet filed returns
 regardless if they were due a refund from income tax withholding. Many taxpayers used tax
 professionals to file these unnecessary returns. Since these are taxpayers with minimal income,
 any unnecessary costs can pose a financial burden. Although taxpayers would likely maintain
 their financial records whether they filed or not, there is still a significant amount of time and
 money expended to file unnecessary returns. The IRS and the tax professional community share
 responsibility to educate taxpayers aged 65 or older to discontinue their withholding and filing of
 unnecessary tax returns.
               Elderly Taxpayers Would Benefit by the Internal Revenue Service
               and Tax Professionals Partnering to Reduce Unnecessary Filings




Recommendations
We recommended that the Commissioner, Wage and Investment Division, ensure consistency
between the IRS’ public web site (IRS.gov) and written products by reviewing and, if necessary,
revising the IRS’ most common publications and U.S Individual Income Tax Return
(Form 1040/1040A) instructions. The revisions should include language that advises taxpayers
to discontinue income tax withholding if there is little likelihood that they will be required to file
in subsequent years.
Also, the Commissioner, Wage and Investment Division, should conduct focus groups with the
elderly, tax professionals, and/or payers of pensions and annuities to determine why taxpayers
are filing unnecessary returns. In addition, the IRS should include discussions on 1) tax
responsibilities of the elderly, 2) discontinuing withholding on Social Security benefits,
3) coordinating rollovers with financial institutions to avoid the mandatory 20 percent
withholding, and 4) filing requirements. These actions may be conducted within the IRS’
existing outreach and education efforts for tax professionals and should result in a reduced
number of unnecessarily filed tax returns, thereby reducing taxpayer burden.

Response
IRS management disagreed with all of our recommendations and outcome measures. They did
not agree to revise the IRS’ most common publications and the instructions to the
Form 1040/1040A because such a change would risk causing confusion for the vast majority of
taxpayers in order to accommodate a small number of filers. However, they will reinforce the
message about unnecessary filings in the Tax Guide for Seniors (Publication 554) and will
review those publications specifically targeting the elderly to determine whether similar
language as provided on IRS.gov may be appropriate. The Wage and Investment Division
Research office is working in conjunction with the Media and Publications function to review
prior research from the Reduce Unnecessary Filing program and from external entities, such as
the American Association of Retired Persons. Once they have reviewed this research, they will
determine what future action is necessary, including whether they should conduct focus groups
with the elderly, tax professionals, and/or payers of pensions and annuities. Management’s
complete response to the draft report is included as Appendix VI.

Office of Audit Comment
We agree that reinforcing the message regarding unnecessary filings in publications specifically
targeting the elderly is necessary. However, an increased awareness effort may not be successful
if it is limited to only those publications. At a minimum, the IRS should refer elderly taxpayers
from the instructions and most common publications to the targeted publication for more detailed
information. In addition, IRS management stated that they would only consider conducting
focus groups if their review of prior research warranted them. However, we believe the focus
                                                                                                     2
              Elderly Taxpayers Would Benefit by the Internal Revenue Service
              and Tax Professionals Partnering to Reduce Unnecessary Filings



groups will provide valuable insight into the root causes of why the elderly continue to file
and/or have income tax withheld. Focus groups and outreach efforts to engage the preparer
community will assist the IRS with its effort to reduce taxpayer burden.
IRS management did not agree with the outcome measures because they were unable to verify
that the returns in question were truly unnecessary. Therefore, they could not comment on the
associated taxpayer costs and time burden. Our analyses focused on taxpayers whose reported
income was equal to or less than the exemption amount which is only one of the components for
determining filing requirements. Had we taken both components – the exemption amount and
the standard deduction – the population would have been larger. Taking such a conservative
approach makes us confident that our outcome measures are sound and reasonable.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




                                                                                                3
                    Elderly Taxpayers Would Benefit by the Internal Revenue Service
                    and Tax Professionals Partnering to Reduce Unnecessary Filings




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Internal Revenue Service and Tax Professionals Can Partner to
          Reduce Taxpayer Burden..............................................................................Page 4
                    Recommendation 1:..........................................................Page 6

                    Recommendation 2:..........................................................Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measures...............................................................Page 14
          Appendix V – Population Demographics .....................................................Page 16
          Appendix VI – Management’s Response to the Draft Report ......................Page 18
       Elderly Taxpayers Would Benefit by the Internal Revenue Service
       and Tax Professionals Partnering to Reduce Unnecessary Filings




                       Abbreviations

DCW              Data Center Warehouse
IDRS             Integrated Data Retrieval System
IRS              Internal Revenue Service
RUF              Reduce Unnecessary Filing
                 Elderly Taxpayers Would Benefit by the Internal Revenue Service
                 and Tax Professionals Partnering to Reduce Unnecessary Filings




                                           Background

In its 2007 Annual Report, the Internal Revenue Service (IRS) Oversight Board stated,
        To take taxpayer service to the next level, the IRS must do more than respond to
        taxpayer inquires. It must understand taxpayers’ needs better through new
        research and implement education and outreach services tailored to the needs of
        specific groups of taxpayers. Great service requires that the IRS proactively
        provides taxpayers with information that helps them easily understand their tax
        obligations, provides more self-service applications, simplifies information
        sharing, and facilitates electronic filing.
In August 2007, the Treasury Inspector General for Tax Administration reported that over
8 million tax returns were unnecessarily filed in each of the Tax Years 2003, 2004, and 2005.1
Eighty-five percent of these returns were filed to obtain a refund of taxes withheld. The
remaining 15 percent of these unnecessarily filed returns did not generate tax collections or a
refund. We observed that taxpayers who received income solely from non-taxable Social
Security benefits were filing tax returns to reclaim income tax withheld. The taxpayers in this
group had no filing requirements or tax liabilities and, except for the withholding issue, were
filing unnecessary returns. Eliminating unnecessary filings could reduce the IRS’ processing
costs as well as reduce taxpayer burden for this specific group of individuals.
Our review focused solely on taxpayers aged 65 or older, why they filed, and the IRS’ outreach
and education efforts to curtail their continued filing. There is the potential that more and more
taxpayers will fall into this category since the number of taxpayers receiving Social Security
benefits is increasing with the “graying of America” as the baby boomer generation retires and
life expectancy increases. Due to the economic stimulus payments, many taxpayers filed in Tax
Year 2007 after years of not filing, thereby skewing any current trend analyses to monitor this
group. However, the Social Security Administration Fiscal Year 2007 Performance and
Accountability Report showed a steady increase in Social Security benefit recipients as indicated
in Figure 1.




1
 Evaluation of the Characteristics of Unnecessarily Filed Individual Income Tax Returns (Reference Number
2007-40-130, August 17, 2007).
                                                                                                       Page 1
                    Elderly Taxpayers Would Benefit by the Internal Revenue Service
                    and Tax Professionals Partnering to Reduce Unnecessary Filings



                                 Figure 1: Number of Beneficiaries
                           As of September 30th of Each Year (In Millions)

                                  1998 1999 2000 2001 2002 2003 2004 2005 2006 2007
    Old Age Survivor
    Insurance only2               37.9     38.0    38.7    38.9     39.2    39.4    39.6     40.0    40.4      40.9
    Disability Insurance
    only                            6.3     6.5     6.6      6.8     7.1     7.5      7.8     8.2      8.5      8.8
    Supplemental Security
    Income only3                    4.2     4.2     4.2      4.3     4.4     4.4      4.6     4.6      4.7      4.8

    Total4                        48.4     48.7    49.5    50.0     50.7    51.3    52.0     52.8    53.6      54.5
    Source: Social Security Administration Fiscal Year 2007 Performance and Accountability Report, dated
    November 11, 2007.

In Calendar Year 1991, the IRS conducted a study to determine the volume of unnecessary
filings. From the results of this study, it began a program called Reduce Unnecessary Filings
(RUF). The RUF program targeted 2 groups of individuals who were needlessly filing returns:
young taxpayers between the ages of 15 and 19, and taxpayers aged 65 or older. In Calendar
Year 1998, three publications were developed and issued to each group of taxpayers advising
them not to file and to discontinue having income tax withheld during subsequent tax years. The
third publication was last updated for Tax Year 2004. The publications were:
        1. People 15-19 Years Old: You May Not be Required to Have Federal Tax Withheld
           (Publication 3136).
        2. People on a Pension: You May Not be Required to Have Federal Tax Withheld
           (Publication 3137).
        3. You May Not Need to File a 2004 Tax Return (Publication 3195), which was sent in lieu
           of a tax package to taxpayers in both groups.
With the advent of electronic filing, processing costs for the IRS began to decline. Inversely, the
costs for direct mailing of RUF program publications were increasing. As a result, the RUF


2
  Old Age Survivor Insurance benefits are for working Americans who qualify upon their retirement. Benefits are
also paid to certain family members and survivors of the retiree. This entitlement program is commonly referred to
as Social Security.
3
  Supplemental Security Income is a nationwide assistance program administered by the Social Security
Administration designed to provide or supplement the income of aged, blind, or disabled adults and children with
limited income and resources.
4
  Receiving Old Age Survivor Insurance, Disability Insurance, or Supplemental Security Income only.
                                                                                                             Page 2
                 Elderly Taxpayers Would Benefit by the Internal Revenue Service
                 and Tax Professionals Partnering to Reduce Unnecessary Filings



program was discontinued for budgetary reasons. Notices were no longer issued starting with
the 2005 Filing Season. Further, the IRS believed that the information provided by the RUF
program was creating confusion for some taxpayers, particularly those who did have a filing
requirement and were receiving notices not to file or have withholding discontinued.
This review was performed at the IRS Brookhaven Campus5 in Holtsville, New York, during the
period April through November 2008, and included a review of tax returns filed nationwide and
discussions with personnel in the Submission Processing and Strategy and Finance functions of
the Wage and Investment Division and personnel from the Office of Legislative Affairs. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




5
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 3
                   Elderly Taxpayers Would Benefit by the Internal Revenue Service
                   and Tax Professionals Partnering to Reduce Unnecessary Filings




                                      Results of Review

The Internal Revenue Service and Tax Professionals Can Partner to
Reduce Taxpayer Burden
To aid in reducing unnecessary filings, the educational material developed during the RUF
program became an integral part of the public IRS Internet web site (IRS.gov). A link on
IRS.gov, Do You Need to File a Federal Income Tax Return?, guides taxpayers through an
interactive decision-making process that determines whether they need to file a tax return.
IRS.gov is one of the few taxpayer resources that specifically provides taxpayers information on
when to discontinue withholding and stop filing. The language on the web site is very direct,
stating “The questions below will help you determine if you need to file a Federal Income Tax
return or if you need to stop your withholding so you will not have to file an unnecessary return
in the future.” If it is determined that the taxpayer is not required to file, the web site advises the
taxpayer to discontinue withholding for the subsequent year.
The IRS also uses other venues to advise taxpayers of their income tax obligations and filing
requirements. The most common are the instructions that accompany the U.S. Individual Income
Tax Return (Form 1040) providing guidance on whether the taxpayer meets the minimum filing
requirements. Taxpayers who do not meet the filing requirements are advised to file if they are
entitled to a refund of income tax withheld.
Throughout the IRS instructions, the taxpayer is directed to various publications for more
detailed information regarding tax advice for the elderly, filing requirements, Social Security
benefits, withholding, and pension and annuity income. IRS publications consistently advise
taxpayers that withholding is optional for Social Security benefits. Taxpayers are advised to use
the Voluntary Withholding Request (Form W-4V) to commence or discontinue income tax
withholding on their Social Security benefits. Although withholding is not mandatory, the
taxpayer is warned that if tax is not withheld, other income sources might need to have additional
withholding or the taxpayer may be subject to estimated tax payments. Publication language that
warns the taxpayer of estimated tax requirements may be a deterrent for taxpayers to discontinue
withholding.
A November 2008 Gallop Organization survey6 reported more than half of all Americans have
visited a government web site. However, those Americans aged 65 or older comprised the
smallest group of Internet users. Therefore, it is likely that taxpayers aged 65 or older are not
utilizing IRS.gov. To reduce the burden for this specific group of taxpayers, it would benefit the

6
    In The Public We Trust: Renewing the Connection between the Federal Government and the Public.
                                                                                                     Page 4
                    Elderly Taxpayers Would Benefit by the Internal Revenue Service
                    and Tax Professionals Partnering to Reduce Unnecessary Filings



IRS to include the language from its web site in its most commonly used publications such as the
Form 1040 series instructions and publications designed for the elderly. By revising its forms
and instructions, the IRS would provide a message consistent with its web site. This revision
would provide consistent guidance to the elderly regardless of the medium they use to research
IRS products.
As shown in Figure 2, our analysis identified taxpayers that are unnecessarily filing tax returns.
The characteristics of taxpayers filing unnecessary tax returns are aged 65 or older, receiving
Social Security benefits, reporting minimal taxable income, and may or may not have had
income tax withholding to generate a refund. Additional demographics for these taxpayers are
contained in Appendix V.
               Figure 2: Number of Elderly Taxpayers Who Filed Unnecessary
                          Tax Returns for Tax Years 2005 and 2006

                                                                               Tax Year
                                                                    2005                      2006

       Refund Filers                                                20,890 (29%)              53,535 (59%)

       Taxpayers With No Obvious Reason to File                     52,365 (71%)              37,046 (41%)

            Total                                                   73,255                     90,581
      Source: Our analysis of Tax Years 2005 and 2006 Individual Income Tax Returns.

We also evaluated a statistically valid sample of the taxpayer population7 to determine the source
of withholding on these tax returns and found that taxpayers were not having income tax
withheld from their Social Security benefits. Instead, the primary source of withholding came
from pension and/or annuity income. We could not ascertain any other obvious reason for these
taxpayers to be filing, particularly those taxpayers who did not have income tax withholding.
For those taxpayers who had withholding from pension and/or annuity income, it is possible that
the taxpayer had received periodic payments or a lump-sum distribution of an annuity. If a
lump-sum payment is made directly to the taxpayer, current tax law requires the financial
institution to withhold income tax on the taxable portion. If the taxpayer’s intent is to rollover
the amount into another annuity, the taxpayer can avoid this withholding by having the two
financial institutions coordinate the rollover. The IRS presents this information in its
publications and on its web site. When the taxpayer receives a lump-sum distribution directly,
even if it is rolled over within the requisite 60 days, a return must be filed to reclaim the
withholding. Tax return preparers should advise their clients to rollover any lump-sum
distributions through the financial institutions and avoid the 20 percent withholding requirement.


7
    We sampled 382 taxpayer returns for Tax Year 2005 and 383 taxpayer returns for Tax Year 2006.
                                                                                                        Page 5
                 Elderly Taxpayers Would Benefit by the Internal Revenue Service
                 and Tax Professionals Partnering to Reduce Unnecessary Filings



This would assist in reducing the number of unnecessary returns filed by taxpayers aged 65 and
older who may rollover annuities.
A significant number of individual taxpayers hired tax professionals to prepare and file their
income tax returns. Figure 3 shows that taxpayers spent a significant amount of time and money
to prepare and submit unnecessary tax returns. Since these are taxpayers with minimal income,
any unnecessary costs can pose a financial hardship. Although taxpayers would likely maintain
their financial records, they would save a significant amount of time and costs by not filing.
Using the IRS’ estimates and projecting the filing behavior of our sample to the total taxpayer
population, we estimated the potential costs and time expended by our population of taxpayers.
           Figure 3: Costs to Taxpayers Who Filed Unnecessary Tax Returns
                                                    Average                         Average
                                                     Cost to                        Hours to
                  Type of           Number of       Prepare a                       Prepare a       Total
 Tax Year        Tax Return         Taxpayers      Tax Return      Total Cost      Tax Return       Hours
   2005              1040             48,348          $103          $4,979,844        13.2          638,194
                1040A/1040EZ          24,907          $ 72          $1,793,304        11.1          276,468
   2006              1040             29,892          $114          $3,407,657        14.1          421,473
                1040A/1040EZ          60,689          $ 72          $4,369,627        10.4          631,168
   Total                             163,836                       $14,550,432                     1,967,303
Source: Our analysis of Tax Years 2005 and 2006 Individual Income Tax Returns. Tax return preparation costs
and hours are from the Form 1040 instruction booklet.

The IRS’ costs to process the unnecessary returns are not substantial. Further, to obtain certain
one-time tax benefits provided by law, such as the recent Federal telephone excise tax credit and
the economic stimulus payment, taxpayers who normally do not have a filing requirement should
file returns to obtain the tax benefits. However, in general, taxpayers will directly benefit by not
filing unnecessary returns.
Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Ensure consistency between IRS.gov and written products by reviewing
and, if necessary, revising the IRS’ most common publications and Form 1040/1040A
instructions. The revisions should ensure that language is included that advises taxpayers to
discontinue income tax withholding if there is little likelihood that they will be required to file in
subsequent years.
        Management’s Response: IRS management disagreed with this recommendation
        and its outcome measures. They did not agree to revise the IRS’ most common
                                                                                                      Page 6
               Elderly Taxpayers Would Benefit by the Internal Revenue Service
               and Tax Professionals Partnering to Reduce Unnecessary Filings



       publications and the instructions to the Form 1040/1040A because such a change would
       risk causing confusion for the vast majority of taxpayers in order to accommodate a small
       number of filers. However, they will reinforce the message about unnecessary filings in
       the Tax Guide for Seniors (Publication 554) and will review those publications
       specifically targeting the elderly to determine whether similar language as provided on
       the web site may be appropriate.
       Office of Audit Comment: We agree that reinforcing the message regarding
       unnecessary filings in publications specifically targeting the elderly is necessary.
       However, an increased awareness effort may not be successful if it is limited to only
       those publications. Many taxpayers rely just on the instructions provided for information
       and guidance. At a minimum, the IRS should refer elderly taxpayers from the
       instructions and most common publications to the targeted publication for more detailed
       information.
       IRS management disagreed with the outcome measures because they were unable to
       verify that the returns in question were truly unnecessary. Therefore, they could not
       comment on the associated taxpayer costs and time burden. Our analyses focused on
       taxpayers whose reported income was equal to or less than the exemption amount, which
       is only one of the components for determining filing requirements. Had we taken both
       components – the exemption amount and the standard deduction – the population would
       have been larger. Taking such a conservative approach makes us confident that our
       outcome measures are sound and reasonable
Recommendation 2: Conduct focus groups with the elderly, tax professionals, and/or payers
of pensions and annuities to determine why taxpayers are filing unnecessary returns. In addition,
the IRS should include discussions on 1) tax responsibilities of the elderly, 2) discontinuing
withholding on Social Security benefits, 3) coordinating rollovers with financial institutions to
avoid the mandatory 20 percent withholding, and 4) filing requirements. These actions may be
conducted within the IRS’ existing outreach and education efforts for tax professionals and
should result in a reduced number of unnecessarily filed tax returns, thereby reducing taxpayer
burden.
       Management’s Response: IRS management disagreed with this recommendation.
       The Wage and Investment Division Research office is working in conjunction with the
       Media and Publications function to review prior research from the RUF program and
       from external entities, such as the American Association of Retired Persons. Once they
       have reviewed this research, they will determine what future action is necessary,
       including whether they should conduct focus groups with the elderly, tax professionals,
       and/or payers of pensions and annuities.
       Office of Audit Comment: IRS management stated that they would only consider
       future action if their review of prior research indicated that focus groups are warranted.

                                                                                            Page 7
       Elderly Taxpayers Would Benefit by the Internal Revenue Service
       and Tax Professionals Partnering to Reduce Unnecessary Filings



However, we believe the focus groups will provide valuable insight into the root causes
of why the elderly continue to file and/or have income tax withheld. Focus groups and
outreach efforts to engage the preparer community will assist the IRS with its effort to
reduce taxpayer burden. Without this important knowledge, the IRS will be unable to
take measures effectively to reduce unnecessary filings.




                                                                                   Page 8
                  Elderly Taxpayers Would Benefit by the Internal Revenue Service
                  and Tax Professionals Partnering to Reduce Unnecessary Filings



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine what steps, if any, the IRS had taken to
inform taxpayers who file returns to reclaim withholding from non-taxable Social Security
benefits for which they do not have to have income tax withheld or file returns. To accomplish
our objective, we:
I.       Identified those taxpayers who had minimal income other than Social Security benefits
         that were not taxable and who filed returns in Tax Years 2005 and 2006.
         A. Identified the population of taxpayers who filed returns for Tax Years 2005 and 2006
            through the Data Center Warehouse (DCW).1
         B. Assessed the reliability of DCW and Integrated Data Retrieval System (IDRS) data2
            by reviewing a random sample of taxpayers’ accounts for both tax years. To verify
            DCW data, we selected 57 DCW files and compared them to IDRS taxpayer account
            information. To verify IDRS data, we selected 10 returns and compared the source
            documents to IDRS transcripts. Upon completion of our tests, we deemed the data
            sufficiently reliable to accomplish the overall objective of the audit.
         C. Extracted files from the DCW for Processing Years 2006 and 2007 consisting of all
            taxpayers aged 65 and older who received Social Security benefits and had income
            less than the exemption amounts for their filing status. Using various queries, we
            eliminated those taxpayers with:
             1. Income from wages; schedules associated with U.S. Individual Income Tax
                Return (Form 1040) including Profit or Loss from Business (Schedule C), Capital
                Gains and Losses (Schedule D), Supplemental Income and Loss (Schedule E),
                and Profit or Loss From Farming (Schedule F) to decrease the likelihood that
                taxpayers would have a reportable transaction or a loss to offset income;
                withholding from wages; or liability for self-employment taxes.
             2. Negative other income (losses) that would offset reportable income, such as net
                operating losses offsetting positive income.
             3. Refundable credits and/or earned income tax credit that would require the

1
  The DCW provides data and data access services; centralizes storage, security, and administration of files; and
develops uniform and user-friendly interfaces for users to access data.
2
  An IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 9
              Elderly Taxpayers Would Benefit by the Internal Revenue Service
              and Tax Professionals Partnering to Reduce Unnecessary Filings



              taxpayer to file in order to receive the credit.
          4. A tax liability, which could necessitate withholding.
          5. Itemized deductions that would offset positive income.
          6. Refunds greater than withholding which would indicate some sort of refundable
             credit was due to the taxpayer.
          Based on the results of Step I.C., we determined that the population for Tax Year
          2005 was 73,255 taxpayers and the population for Tax Year 2006 was 90,581.
       D. Matched Tax Years 2005 and 2006 taxpayer accounts against the Information Return
          Master File to annotate the amounts of Social Security benefits and withholding
          reported on each taxpayer’s Social Security Benefit Statement (Form SSA-1099).
          The annotated file was analyzed for trends and patterns.
       E. Using various queries, analyzed the Tax Years 2005 and 2006 populations’
          demographics for the following information:
          1. Number of taxpayers who had withholding.
          2. Number of taxpayers who used preparers.
          3. Number of taxpayers who filed electronically.
          4. Sources of income reported on the return.
II.    Selected a statistically valid sample of taxpayers from each tax year’s population based
       on a 95 percent confidence level, a confidence interval of +/- 5 percent, and an estimated
       error rate of 50 percent. A statistical sampling method was used to make projections
       about the populations from which the samples were selected. We provided the numbers
       to the statistician contracted by the Treasury Inspector General for Tax Administration to
       validate our statistical sampling methodology.
III.   From our samples of 382 taxpayers in Tax Year 2005 and 383 taxpayers in Tax Year
       2006, determined why these taxpayers continued to file tax returns by analyzing taxpayer
       accounts and tax return data to identify reportable but not taxable events that required
       filing an income tax return. We:
       A. Researched the IDRS to determine if there was underreported income, sale of
          residence, or stock sales that could generate potential losses; nonemployee
          compensation resulting in potential self-employment taxes; or Individual Retirement
          Arrangement rollovers.
       B. Researched the IDRS to determine if subsequent adjustments or amended returns
          posted to the taxpayers’ accounts.


                                                                                         Page 10
             Elderly Taxpayers Would Benefit by the Internal Revenue Service
             and Tax Professionals Partnering to Reduce Unnecessary Filings



      C. Used IDRS transcripts to match the withholding on the return to the transcript to
         determine the source of the withholding claimed.
IV.   Determined what steps, if any, the IRS had taken to educate these taxpayers of not having
      withholding on their Social Security benefits and to discourage unnecessary filing.
      A. Researched the:
         1. IRS web site for publications addressing when to have income tax withheld from
            Social Security benefits. We reviewed these publications for guidance regarding
            Social Security benefits and withholding.
         2. Instructions for Forms 1040 and 1040A regarding the taxability of and reporting
            of Social Security benefits.
         3. Social Security Administration and the Railroad Retirement Board web sites to
            determine if there was any information available to the public regarding
            withholding from Social Security or Railroad Retirement benefits.
      B. Discussed with IRS officials their current and future plans to reduce the unnecessary
         filings from this population.
V.    Determined the impact these unnecessary filings have on the IRS and the taxpayer by
      estimating:
      A. How many taxpayers used paid preparers to prepare their tax returns. From our
         samples, we determined the percentage of types of returns filed and applied those
         percentages to the populations for each tax year. Using the IRS’ cost estimates, we
         projected the annual costs for taxpayers to prepare and submit unnecessary returns.
      B. The time it took taxpayers to prepare their returns. Projecting the filing patterns from
         the sample to the population, we used the IRS’ time estimates to calculate the
         estimated time expended for taxpayers to prepare and submit unnecessary returns.
      C. How many taxpayers electronically filed their tax returns. This information was used
         to estimate the IRS’ costs to process these returns.
      D. The IRS’ costs to process these returns. We estimated the filing behavior of the
         populations using the projections from the samples to quantify the types of returns
         filed and how they were filed. For each tax year, we used the processing costs
         provided in the Cost Estimate Reference (Document 6746) to estimate what it cost the
         IRS to process these unnecessary returns. We then compared these costs to the actual
         costs of the RUF program.




                                                                                         Page 11
              Elderly Taxpayers Would Benefit by the Internal Revenue Service
              and Tax Professionals Partnering to Reduce Unnecessary Filings



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Marybeth H. Schumann, Director
Bernard F. Kelly, Audit Manager
Gail Schuljan, Lead Auditor
Margaret F. Filippelli, Senior Auditor
Carol Gerkens, Senior Auditor
Michael J. Hillenbrand, Senior Auditor
Richard Hillelson, Information Technology Specialist




                                                                                      Page 12
              Elderly Taxpayers Would Benefit by the Internal Revenue Service
              and Tax Professionals Partnering to Reduce Unnecessary Filings



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Communications and Liaison, Wage and Investment Division SE:W:C
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Wage and Investment Division SE:W




                                                                                     Page 13
                  Elderly Taxpayers Would Benefit by the Internal Revenue Service
                  and Tax Professionals Partnering to Reduce Unnecessary Filings



                                                                                                 Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.
Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 163,836 taxpayer accounts affected (see page 4).
Methodology Used to Measure the Reported Benefit:
Our review focused on taxpayers aged 65 or older who had minimal income, no apparent filing
requirement, yet continued to file tax returns. Using the DCW1 to analyze taxpayer accounts, we
identified 163,836 taxpayer accounts that met the criteria and filed a tax return for which 73,255
taxpayers were from Tax Year 2005 and 90,581 taxpayers were from Tax Year 2006.
Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; $14,550,432 taxpayer costs for filing unnecessary returns (see
    page 4).
•   Taxpayer Burden – Potential; 1,967,303 taxpayer hours expended unnecessarily preparing
    and filing tax returns (see page 4).
Methodology Used to Measure the Reported Benefit:
From a population of 73,255 tax returns filed in Tax Year 2005 and 90,581 filed in Tax Year
2006, we evaluated a statistically valid sample2 of 382 taxpayers who filed 2005 tax returns and
383 taxpayers who filed 2006 tax returns. Figure 1 shows our projection of the filing pattern
from the sample to the population for each tax year.




1
  The DCW provides data and data access services; centralizes storage, security, and administration of files; and
develops uniform and user-friendly interfaces for users to access data.
2
  We used a confidence level of 95 percent, reliability factor of +/- 5 percent, and error rate of 50 percent.
                                                                                                            Page 14
                   Elderly Taxpayers Would Benefit by the Internal Revenue Service
                   and Tax Professionals Partnering to Reduce Unnecessary Filings



                        Figure 1: Filing Patterns of Taxpayers Who Filed
                                   Unnecessary Tax Returns
                                                        Number of                  Percentage
                                    Type of             Taxpayers   Percentage     Projected to
                  Tax Year         Tax Return           in Sample    of Filers3    Population
                     2005             1040                 254         66%            48,348
                                 1040A/1040EZ              128         33%            24,907
                     2006             1040                 125         33%            29,892
                                 1040A/1040EZ              258         66%            60,689
                     Total                                                           163,836
                 Source: Our analysis of Tax Years 2005 and 2006 Individual Income Tax Returns.

We projected the costs and time estimates to the number of taxpayers in our population (see
page 6, Figure 3).




3
    Percentages were rounded to nearest whole number.
                                                                                                  Page 15
                 Elderly Taxpayers Would Benefit by the Internal Revenue Service
                 and Tax Professionals Partnering to Reduce Unnecessary Filings



                                                                                                Appendix V

                              Population Demographics

Using various queries, we analyzed the Tax Year 2005 population of 73,255 taxpayers and Tax
Year 2006 population of 90,581 taxpayers for the following demographics as shown in Figure 1.
                       Figure 1: Demographics of Taxpayers Who Filed
                                  Unnecessary Tax Returns
                                        Tax Year      Percentage        Tax Year       Percentage
                 Characteristic           2005         of Filers1         2006          of Filers
              Paid Preparer              46,645           64%             37,552           41%
              Electronic Filers          30,607           42%             29,550           33%
              Spouse 65 or Older         23,999           33%             28,820           32%

                  Withholding
              Withholding                20,890           29%             53,535           59%
              No Withholding             52,365           71%             37,046           41%
               Income Sources2
              Taxable Pension            33,689           46%             41,080           45%
              Taxable Individual
              Retirement
              Arrangement                14,768           20%             19,582           22%
              Dividends                  13,214           18%             13,276           15%
              Unemployment                   885            1%             1,632            2%
              Other Income                 3,597            5%             3,472            4%
                                3
              Interest Income                                             50,901           56%
             Source: Our analysis of Tax Years 2005 and 2006 Individual Income Tax Returns.




1
  Percentages were rounded to nearest whole number.
2
  Percentages will not add to 100 percent since taxpayers could have income from multiple sources.
3
  Interest income was not available on the DCW for Tax Year 2005.
                                                                                                     Page 16
                     Elderly Taxpayers Would Benefit by the Internal Revenue Service
                     and Tax Professionals Partnering to Reduce Unnecessary Filings



From a population of 73,255 tax returns filed in Tax Year 2005 and 90,581 filed in Tax Year
2006, we evaluated a statistically valid sample4 of 382 taxpayers who filed 2005 tax returns and
383 taxpayers who filed 2006 tax returns. Figure 2 shows our projection of the filing pattern
from the sample to the population for each tax year.
                               Figure 2: Filing Patterns of Taxpayers Who
                                     Filed Unnecessary Tax Returns
                                                          Number of                         Percentage
                                       Type of            Taxpayers        Percentage       Projected to
                    Tax Year          Tax Return          in Sample         of Filers5      Population
                       2005               1040                 254             66%                 48,348
                                    1040A/1040EZ               128             34%                 24,907
                       2006               1040                 125             33%                 29,892
                                    1040A/1040EZ               258             67%                 60,689
                      Total                                                                       163,836
                  Source: Our analysis of Tax Years 2005 and 2006 Individual Income Tax Returns.




4
    We used a confidence level of 95 percent, reliability factor of +/- 5 percent, and error rate of 50 percent.
5
    Percentages were rounded to nearest whole number.
                                                                                                                   Page 17
   Elderly Taxpayers Would Benefit by the Internal Revenue Service
   and Tax Professionals Partnering to Reduce Unnecessary Filings



                                                     Appendix VI

Management’s Response to the Draft Report




                                                            Page 18
Elderly Taxpayers Would Benefit by the Internal Revenue Service
and Tax Professionals Partnering to Reduce Unnecessary Filings




                                                         Page 19
Elderly Taxpayers Would Benefit by the Internal Revenue Service
and Tax Professionals Partnering to Reduce Unnecessary Filings




                                                         Page 20
Elderly Taxpayers Would Benefit by the Internal Revenue Service
and Tax Professionals Partnering to Reduce Unnecessary Filings




                                                         Page 21
